                                                  National Railroad Passenger Corporation
                                                  Office of Inspector General
                                                  10 G Street N.E.
	                                                Washington, DC 20002




       AMTRAK INDEPENDENT CONTRACTOR OBTAINS HOTEL REWARD POINTS
                            OCTOBER 31, 2013
                            CASE # DC-13-0020

OI found that a former Amtrak executive, hired as an Independent Contractor,
requested and received “unclaimed” hotel reward points for Amtrak conferences and
training events. This conduct gave the appearance of a conflict of interest. This same
individual was also found to have disclosed information about an ongoing Internal
Affairs investigation by the Amtrak Police Department. Amtrak management accepted
our recommendation and will revise Amtrak’s business travel policy to address
promotional benefits such as reward points and airline miles.
